THE FARM CREDIT ADMINISTRATION

  AGREED-UPON PROCEDURES:
       GISRA REVIEW

        August 31, 2001
                                              TABLE OF CONTENTS




                                                                                                                      PAGE

INDEPENDENT ACCOUNTANT’S AGREED-UPON PROCEDURES
  REPORT FOR GISRA EVALUATIONS AND REVIEW .....................................................1

EXHIBIT A: Recommended Format for GISRA Executive Summary
  In accordance with Memorandum M-01-24 Reporting Instructions
  for the Government Information Security Reform Act..............................................................3

EXHIBIT B: GISRA Review ......................................................................................................16
                                                                                 t


A1
                   Independent Accountant’s Agreed-Upon Procedures Report

To the Inspector General of the
Farm Credit Administration


We have performed the procedures summarized below and presented in more detail in Exhibit B
which were agreed to by the Farm Credit Administration’s Office of Inspector General, solely to
assist you with the annual evaluation of the Farm Credit Administration’s (FCA) security
program and practices. This agreed-upon procedures engagement was conducted in accordance
with consulting standards established by the American Institute of Certified Public Accountants.
The sufficiency of these procedures is solely the responsibility of those parties specified in this
report. Consequently, we make no representation regarding the sufficiency of the procedures
described below either for the purpose for which this report has been requested or for any other
purpose.

We performed the procedures that determined the critical elements which represent tasks that are
essential for establishing compliance with Government Information Security Reform Act
(GISRA), and guidelines issued by OMB, GAO, CIO Council, and NIST for each control
category, including:

   •    documented security policies;
   •    documented security procedures;
   •    implemented security procedures and controls;
   •    tested and reviewed security procedures and controls; and
   •    fully integrated security procedures and controls.

For each control category, we determined the associated objectives, risks, and critical activities,
as well as related control techniques and audit concerns specific to FCA’s information
technology environment.

We used the requirements and criteria found in GAO’s Federal Information System Controls
Audit Manual (FISCAM), OMB Circular A-130, Appendix III, “Security of Federal Automated
Information Resources,” current NIST guidance, the CIO Council Framework, and information
gleaned during the review of any FCA security incidents that may have occurred at the agency
during the evaluation period.



    Centerpark I
    4041 Powder Mill Road, Suite 410
    Calverton, Maryland 20705-3106
    tel: 301-931-2050
    fax: 301-931-1710
    www.cliftoncpa.com
                                                         1
                                       Offices in 13 states and Washington, DC          h
In our review we considered the following mission critical systems:

•   Federal Financial System (FFS)
•   Consolidated Reporting System (CRS)
•   Lotus Notes
•   WindowsNT
•   Firewall System
•   FCA Web site

We were not engaged to, and did not, conduct an examination, the objective of which would be
the expression of an opinion on the Farm Credit Administration’s security program and practices.
Accordingly, we do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the FCA’s Office of Inspector
General and is not intended to be and should not be used by anyone other than this specified
party.


A1
Calverton, Maryland
August 31, 2001




    Centerpark I
    4041 Powder Mill Road, Suite 410
    Calverton, Maryland 20705-3106
    tel: 301-931-2050
    fax: 301-931-1710
    www.cliftoncpa.com
                                                         2
                                       Offices in 13 states and Washington, DC        h
EXHIBIT A: GISRA EXECUTIVE SUMMARY


 In accordance with Memorandum M-01-24
       Reporting Instructions for the
Government Information Security Reform Act




                    3
The Office of Inspector General, supported by a contract with Clifton Gunderson LLP performed
an independent evaluation of the Farm Credit Administration’s (FCA or Agency) information
security program and practices of the agency.

1.   Introduction

     FCA is an independent agency in the executive branch of the U. S. Government. It is
     responsible for the regulation and examination of the banks, associations, and related
     entities that collectively comprise what is known as the Farm Credit System (System).
     FCA promulgates regulations to implement the Farm Credit Act of 1971, and examines
     System institutions for compliance with the Act, regulations, and safe and sound banking
     practices.

     The Farm Credit Administration has approximately 300 employees. The Agency
     headquarters are in McLean, Virginia. It has field examination offices in McLean,
     Virginia; Bloomington, Minnesota; Dallas, Texas; Denver, Colorado; and Sacramento,
     California.

2.   Mission critical systems under evaluation

     Mission critical systems are defined as any telecommunications or information system used
     or operated by an agency or by a contractor of an agency, or organization on behalf of an
     agency that processes any information, the loss, misuse, disclosure, or unauthorized access
     to or modification of, would have a debilitating impact on the mission of an agency.

     In accordance with FY 2001 Defense Authorization Act, Section X, Subtitle G, which
     contains the Government Information Security Reform Act (GISRA), we evaluated the
     following mission critical systems.

     a. Federal Financial System (FFS)

        FFS is one of the major applications of FCA that supports all the core accounting
        systems including budget execution, accounts payable, disbursements, purchasing,
        travel, accounts receivable, general ledger, document tracking, project cost accounting,
        and external reporting. The FFS is a mainframe computer financial management
        system. FFS is processed by the United States Geological Survey (USGS)/National
        Business Center (NBC), and American Management System, Inc. (AMS). The FFS
        software is owned and maintained by AMS. AMS is responsible for providing
        development activities including regular upgrades, fixes, and requested enhancements
        to maintain the core FFS software. NBC personnel are responsible for defining and
        developing processes to retrieve or receive data from external sources to develop
        corresponding programs that enable FFS to load the data accordingly. FCA security
        administrator is responsible for managing security access control to the FFS agency
        application. The FFS was placed in production in June 2001.




                                                 4
b. Consolidated Reporting System (CRS)

   CRS is a major application that supports FCA operations. CRS is an relational database
   containing financial and statistical information on active and inactive Farm Credit
   Institutions. CRS contains three distinct subsystems including Call Report, Loan
   Account Reporting System (LARS), and Web-based CRS Reports:

   •   Call Report is comprised of financial information including a statement of
       condition, statement of income, and supporting schedules that is collected quarterly
       from the Farm Credit System (FCS) Institutions. Call Report subsystem is
       monitored, analyzed, and assessed by FCA examiners and financial analysts to
       ensure that the integrity and confidentiality of financial data are maintained.

   •   LARS database contains specific loans of Farm Credit System (FCS) Lender
       Institutions, and the data are quarterly submitted to the FCA via diskette or zip file.
       The loan data was loaded, verified and validated by two designed FCA personnel.

   •   Web-based CRS Reports – is an in-house developed application. The reports are
       available on the FCA’s Web site. The Freedom of Information Act (FOIA)
       versions of the reports are available to the public. The non-FOIA versions of the
       reports are available to selected FCA users who are authorized to view their
       institution data.

c. Lotus Notes

   Lotus Domino (Notes) application is database system software owned and maintained
   by the FCA. The application supports the daily administrative tasks including e-mail,
   group discussion, calendaring and scheduling, database management, forms, and
   workflow of FCA.

d. Mission Critical General Support Systems.

   FCA has three mission critical general support systems.

   •   WindowsNT

       Windows NT 4.0 operating system is the core program of a computer, which allows
       the other programs and applications to operate. The operating system is installed on
       all agency servers and Micron Client Pro workstations. WindowsNT is fully
       integrated with networking capabilities.        WindowsNT was designed for
       client/server computing, which facilitates user workstations to connect to servers
       and share processing information between computers.




                                           5
         •   Firewall System

             The firewall is physically housed in the Computer Center of FCA Headquarter,
             McLean, Virginia. The system allows control access between the internal network
             and the World Wide Web. Firewall provides maximum perimeter security without
             compromising network performance. It provides strong protection against
             unwanted intrusion, while allowing approved business traffic to cross the FCA’s
             network.

         •   FCA Web Site

             The FCA web site presents Agency information on the Internet.

3.   GISRA review methodology
     The Office of Inspector General, supported by Clifton Gunderson LLP (CG), the
     independent evaluator, determined the critical elements that represent tasks are essential for
     establishing compliance with GISRA, and guidelines issued by OMB, GAO, CIO Council,
     and NIST for each control category, including:

     •   documented security policies;
     •   documented security procedures;
     •   implemented security procedures and controls;
     •   tested and reviewed security procedures and controls; and
     •   fully integrated security procedures and controls.

     For each control category, the evaluator determined the associated objectives, risks, and
     critical activities, as well as related control techniques and audit concerns specific to FCA’s
     information technology environment.

     The review was conducted in accordance with the requirements and criteria found in
     GAO’s FISCAM, OMB Circular A-130, Appendix III, “Security of Federal Automated
     Information Resources,” current NIST guidance, the CIO Council Framework, and
     information gleaned during the review of any FCA security incidents that had occurred at
     the agency during the evaluation period. We used this information to evaluate FCA’s
     practices and addressed the above five control areas to be considered in determining
     compliance with GISRA. For each critical element, the evaluator made a summary
     determination as to the effectiveness of FCA’s related controls. If the controls for one or
     more of each category’s critical elements were found ineffective, then the controls for the
     entire category are not likely to be effective. The evaluator exercised its professional
     judgment in making such determinations.

     The evaluation focused on the actual performance of the Agency’s security program and
     practices and not on how the Agency measures its performance in its own annual reviews.
     The Agency’s security controls were evaluated for programs and practices including testing
     the effectiveness of security controls for Agency systems or a subset of systems as


                                                6
     required. The evaluator performed GISRA evaluations in accordance with Federal
     guidance, e.g., NIST Self-Assessment Guide for Information Technology Systems.

4.   Material weaknesses identified and reported under existing law

     In the Independent Auditors Report on Internal Control on Compliance with Laws and
     Regulations Report the auditors stated that “The Office of Chief Financial Officer’s
     financial management system, FINASST, could not be relied on to produce financial
     statements for the fiscal year ended September 30, 2000. During the implementation of the
     new system, difficulties in maintaining functionality of all accounting cycles required FCA
     to manually reconcile all FY 2000 activity and rely on a manual trial balance to prepare the
     annual financial statements.” The problem resulted in excessive delays in producing
     financial statements for the fiscal year ended September 30, 2000. “These delays extended
     into March 2001. The financial management system was a serious challenge facing the
     Agency”.

     FCA has resolved the material weakness. FCA initiated corrective action by establishing a
     cross-servicing agreement with the Department of Interior, National Business Center for
     the financial management system used by the Department of the Interior. According to
     management representation the system was successfully implemented at FCA on June 4,
     2001, and is compliant with FFMIA. Management reported that implementation remedied
     the deficiency noted in the Independent Auditor’s Report on Compliance with Laws and
     Regulations and took the place of the requirement to submit a remediation plan.

5.   Performance measures for assessing risk

     The assessment of risk at FCA is done at multiple levels both strategic and operational, and
     the program has been geared to review the many issues involved on an annual basis.
     Security plans for all Major Applications are being updated annually, and a risk assessment
     component is associated with each update. The security plans written according to NIST
     SP 800-18 Guidelines which include sections on information sensitivity, risk assessment
     and management, review of security controls, operations and technical controls.

     The security plans provide an overview of security requirements, describe the controls in
     place, delineate responsibilities, and expected behavior of all individuals who access the
     system.

     The plans address the sensitivity and criticality of the information stored within each
     application, processed by, or transmitted by a system that provides a basis for the value of
     the system and is one of the major factors in risk management. The risk analysis considers
     availability, integrity and confidentially of the information. Under each of the three
     categories, the risks are High, Medium and Low. Each security plan identifies threats,
     vulnerabilities and additional security measures required mitigating or eliminating the
     potential that those threats/vulnerabilities could have on the system or its assets.




                                               7
     FCA’s risk cycle includes testing and evaluating controls, analyzing the results, and
     adopting appropriate countermeasures to tighten security. Security is tested and evaluated
     periodically by FCA staff and outside vendors.

     In May 2001, the OCIO performed a review of security controls in place for FCA Web site.
     As results of the review, the OCIO established a Lotus Notes database to collect
     information on publicly announced security vulnerabilities relating to the software and
     hardware currently in use within the Agency.

     In November 1999, an independent contractor, Booze Allen & Hamilton conducted a
     penetration exercise targeting FCA Internet and modem pool dial-up connections.
     Attempts to the internal network behind the firewall and dial-up connections were
     unsuccessful. Brute force attacks tried during this exercise were also unsuccessful. The
     vendors recommended several countermeasures to strengthen security. FCA implemented
     the appropriate countermeasures.

     In August of 1999, the independent firm of Planning Technologies, Inc. (PTI) issued a
     management assessment of the Agency’s network infrastructure. It was determined that
     FCA’s security policy and procedures were above industry standards and overall security
     policies and configuration impose no critical security risk. Recommendations were made
     to optimize the security structure. FCA implemented recommendations were appropriate
     and commensurate with the acceptable level of risk for the system.

     In January 15, 1999, the Inspector General reviewed the availability of the computer
     network from remote locations after receiving complaints concerning accessing and
     maintaining access to FCA network. The results of the review stated that overall the
     Agency’s remote access was sufficiently available to support remote users’ needs.

     The evaluator found the security plans including risk assessments, and level of security up-
     to-date on the systems and applications reviewed. The evaluator found no signification
     security issues.

6.   Performance measures for maintaining Agency-wide security program

     The Agency-wide program is documented in the Policy and Procedure Manual (PPM)
     number 902. FCA maintains current Agency-wide, applications and systems security plans
     in accordance with OMB Circular A-130, Appendix III. The security plans are reviewed
     and updated annually. The security plans consider data sensitivity and data integrity and
     risks of unauthorized internal and external users who may attempt to compromise the
     system. FCA has established security management that serves as a focal point for the
     Agency in evaluating the appropriateness and effectiveness of computer-related controls on
     a day-to-day basis.

     FCA has established a security organization structure. The Chief Information Officer
     (CIO) is responsible for developing and obtaining the approval of the FCA’s Leadership
     Team for an overall policy on the level of security to be achieved in the FCA operations.
     CIO is responsible for establishing a computer security plan which conforms with security


                                               8
     policies established by the FCA Board, and complies with current Federal law, regulations,
     standards, and guidelines. The CIO maintains the management control processes to ensure
     that appropriate administrative, physical, and technical safeguards are incorporated into all
     newly developed computer applications, and into existing systems when significant
     modifications are made. The CIO is responsible for periodically reviewing the security of
     each computer installation and system operated by or used by the Agency. The review
     includes analysis to ascertain that security is commensurate with the risk and magnitude of
     the harm resulting for the loss, misuse or unauthorized access to the Agency information.

     FCA Agency-wide security program addresses the ability to respond rapidly when security
     breaches occur, and procedures that provide continuity of data processing support when
     other incidents arise that affect the availability of FCA computers and systems, and
     procedures to take appropriate steps to prevent a reoccurrence.

     The FCA has integrated its IRM operational and strategic planning with the process of
     inventorying, classifying, and security planning for all Agency hardware and software
     assets. Staff receives training via an annually updated security module, and periodic news
     articles and alerts. In short, FCA has approached its security program as one inclusive of,
     and one that actively engages the entire agency in planning, budgeting, conducting and
     performing their individual and unit roles within a comprehensive Agency computer
     security program.

     FCA’s security program is integrated with the Agency’s Information Resource
     Management (IRM) program. The implementation of planned IRM initiatives has a high
     profile because these are also documented in the annual IRM planning cycle, approved by
     the IRM Operations and Senior Management, and monitored via monthly and quarterly
     reports to management. All deliverables are identified along with the resources required to
     deliver them.

     The training of staff is conducted formally and tracked by individual, completion date, and
     a course evaluation is documented from each individual receiving training. For those with
     specific security responsibilities, training requirements are documented in the individual’s
     development program and employees sent to off site courses as appropriate to their
     responsibilities.

     The actual performance is identified in reports monthly to management, quarterly
     performance measures reports, and in meeting completion timeframes mandated by the
     Agency’s program and in the results of audits completed.

     The evaluators found no security issues concerning the Agency-wide security program.

7.   Training

     As of July 30, 2001, FCA had employed 272 employees. FCA provides security training
     via news articles and updates in the employee newsletter and via an online security tutorial
     (also published in the employee newsletter). The Agency sent all employees both the news



                                                9
     articles and a security tutorial. As an incentive to complete the tutorial, the Agency gives
     the employees who complete the tutorial a “secure computing” clock. The tutorial was
     completed by 273 employees. The cost of providing the training was limited to the salary
     of the Security Officer plus $1,139 for the clocks.

     The Agency technical security training for FY 2001 is $82,700. The training included
     seminars for 18 staff. The CIO attended the “Federal Computer Security Program
     Managers’ Forum” other staff are attending “Accessibility Standards for IT”- National
     Summit, and “Designing a Secure Microsoft Windows 2000-based Network”.

8.   Incident Handling Procedures

     The FCA Computer Security Officer (CSO) is notified of all security incidents to provide
     coordination of the incident response to higher levels or to outside reporting of the security
     incident. Several staff may be involved over the course of the incident depending on the
     type and severity. System, Network, and Database Administrators or other staff are
     directed to respond to the incident as appropriate. FCA has specific incident procedures for
     Virus Incidents, Worm Incidents, Hacker/Cracker Incidents and security vulnerabilities.
     Minor incidents may only require the actions of an Administrator to resolve the issue while
     severe incidents may entail more staff assistance and may invoke the Disaster Recovery
     Plan.

     Information regarding the release of a security incident is controlled. The site-specific
     information such as account or system names, network addresses or program specific
     information is not released to outside agencies. All reporting of incidents is performed by
     the CSO. All release of information regarding an incident must be reviewed and authorized
     by the CIO and the CSO.

     It is the Agency’s policy to report all potential threats to the Federal Computer Incident
     Response Center (FEDCIRC) and the National Infrastructure Protection Center (NIPC).
     Incidents involving fraud, system penetration, theft of Agency assets, or other suspected
     criminal activity are reported to the FBI. In addition, all suspected criminal activity is
     reported to FCA’s Office of General Counsel (OGC) and Inspector General (IG), and the
     content of the reports to law enforcement agencies through and approved by the OFC.

     During the last year, the Agency has reported one incident to the FBI.

9.   Capital Planning and Investment Control Process

     The Chief Information Officer (CIO) is responsible for ensuring that agency security
     programs integrate fully into the Agency’s Enterprise Architecture (EA) and capital
     planning and investment control processes. Security is built into and funded as part of the
     system architecture. The CIO develops security policy and level of security to be achieved.
     The Chairman and FCA Board approve the policy. The CIO develops an overall plan to
     achieve the security objectives and to comply with current law, regulations, and guidance.




                                               10
      The CIO’s overall security program integrates the security program into the Information
      Resources Management (IRM) Planning Process and into the life cycle management of
      each system. Before any system can be developed or modified, the Program Offices must
      submit a proposal during the IRM Planning Call. The IRM Operations Committee
      (IRMOC) reviews the IRM Call submissions and recommends approval or disapproval of
      equipment purchases and system maintenance projects. It also prioritizes proposed
      development projects and enhancements to existing systems using criteria derived from
      OMB guidance. These evaluations include a review of each project’s alignment with and
      impact on FCA’s EA. Security risks and demands on the network are carefully analyzed.
      The budgeted costs of security appear as line items in the OCIO budget and are cross-
      referenced to the costs of meeting strategic goals and to the costs of Office products.

      In addition, OCIO maintains an inventory of systems and applications. This inventory is
      updated each year during the IRM Planning Cycle. The sponsor of each system indicates
      whether it is still required, needs revision, or is no longer needed. The security level of
      each system is also reviewed and revised as necessary during this review.

10.   Methodology to identify prioritizes critical assets

      An initial identification and prioritization of FCA’s critical assets occurs during FCA’s
      annual planning and budgeting process. The Office of the Chief Information Officer
      (OCIO) issues a Call for Agency input on future information resource needs – hardware,
      software, development, maintenance, and training. The IRM Operations Committee
      (IRMOC) reviews the IRM Call submissions and assigns a numeric rating to each proposed
      project and investment based on criteria derived from OMB guidance. The investment
      review process considers both risk and anticipated return and includes a review of each
      project’s alignment with and impact on FCA’s EA. This rating identifies and prioritizes
      critical assets within the EA including links to external systems. Based on the relative
      levels of each proposed project or investment, the IRMOC recommends approval of the
      higher priority items to senior management. The CIO submits the recommended initiatives
      and the IRM budget to senior management for approval of the Plan. The EA is updated
      annually to reflect changes due to completed IT investments and projects.

      Ongoing identification and reassessment of critical assets, especially the applications and
      general support systems, is also conducted during the annual planning process. OCIO
      maintains an inventory of systems and applications. This inventory is updated each year
      during the IRM Planning Call. The sponsor of each system indicates whether the system is
      still required, needs revision, or is no longer needed. The sponsor in consultation with
      OCIO staff determines whether a system is a major application. OCIO staff uses a
      technical committee approach to determine which systems are general support systems. In
      addition, OCIO ensures that all systems are either provided adequate security by the
      general support systems, or are identified as a major application with a unique security
      plan.




                                                 11
11.   Ensure security plan is practiced

      The FCA Chairman and CEO measure the performance of the information security plan
      thorough the annual IRM planning process. The performance measures stated in the IRM
      plan are monitored via monthly and quarterly reports, which are distributed to
      management.

12.   Integration of FCA information technology Security Program

      FCA integrates its information and information technology security program with its
      critical infrastructure protection responsibilities in two main ways. First, the computer
      disaster recovery plan is integrated into the Continuity of Operations Plan (COOP)
      produced by the Office of the Chief Administrative Officer. The COOP is the primary
      document for FCA’s critical infrastructure protection responsibilities. Second, the OCIO
      reviews Office submission to ensure that equipment required to protect critical
      infrastructure (including such things as cell phones for the Board) is included in the IRM
      Planning Call and is budgeted for appropriately.

13.   Contractor Provided Services.

      a. IT Services Provided By Other Agencies

         •   Federal Financial System (FFS)

             FFS provided by the Department of the Interior National Business Center. The FFS
             is proprietary financial management system software owned and maintained by
             American Management Systems, Inc. (AMS). The FFS is made available to FCA
             through an inter-agency agreement with the Department of Interior (DOI), National
             Business Center. The FFS is a mainframe computer financial management system
             that meets the requirements of OMB Circular A-127, Financial Management
             Systems.

             Initially, the FFS was housed in the NBC data center in Reston, Virginia. In
             January of 2001, the NBC data centers were consolidated and processing of the FFS
             was relocated to the NBC data center in Denver, Colorado. An independent audit
             of the DOI, NBC controls and set-up is conducted annually in accordance with
             OMB Circular A-127. The NBC center in Denver is in the process of the review.
             An audit of the Reston Data center, "Report on Controls Placed in Operations and
             Tests of Operating Effectiveness" was conducted by KPMG.

             The FFS is located on a mainframe computer in Denver, Colorado. FCA users
             connect to the FFS over the Internet.

             Full volume tape backups are performed weekly by the NBC data center in Denver,
             Colorado, and are sent to an off-site tape storage facility. Two incremental backups
             are performed daily and are maintained on-site. The DOI Disaster Recovery Plan



                                               12
    includes recovery procedures for the support of the resident applications including
    FFS and the subsystems it incorporates. Data can be reconstructed from the tape
    backups mentioned above. A dial-up connection to the FFS from FCA was tested
    successfully and can be used in case of a disaster at FCA.

    Front End Security is used by NBC to restrict access to the financial information
    contained in the FFS application. To gain access to an FFS application a user must
    pass several security checkpoints or levels of security access.

•   Payroll Services from National Finance Center (NFC)

    The Personnel/Payroll System (PPS) is provided to FCA by USDA’s National
    Finance Center located in New Orleans, Louisiana. The NFC provides distributed
    application and telecommunications support for the remote site located in McLean,
    Virginia. A “master security plan” was developed for the general support system in
    New Orleans by the responsible NFC organization. The security plan developed by
    the FCA’s Office of the Chief Administrative Officer (OCAO) for the remote
    system at FCA references the master security plan.

    FCA’s PPS provides connectivity to the applications and resources located at the
    NFC in New Orleans. This permits designated employees of FCA’s OCAO to
    perform the data input and output functions necessary to record personnel actions
    and accurately calculate pay for employees. Security requirements associated with
    dial-in are addressed in the NFC security plan.

    Design review and testing was conducted on the NFC system. The review and test
    consisted of a compliance verification of the system configuration with established
    guidelines identified in the appropriate Security Compliance Checklist. The
    National Finance Center Configuration Management Group uses configuration
    management software that includes version control, testing, impact analysis, change
    identification and documentation of modifications made to systems and
    applications.

    In addition, ongoing security review and testing is conducted at the National
    Finance Center in New Orleans. The NFC also coordinates contingency planning
    for all client agencies, including FCA, to ensure that adequate contingency systems
    are in place.

    The NFC operating system has access controls that limit who can logon, what
    resources will be available, what each user can do with these resources, and when
    and from where access is available. Management, security, LAN, and key user
    personnel cooperate closely to implement access controls. The NFC operating
    system procedures, network operating system security procedures, user security,
    network file access, console security, and network security are described in the
    security plan for FCA’s PPS.




                                     13
       Currently, NFC software updates are either installed on the mainframe system
       located in New Orleans or available for download from NFC’s web site. Software
       is password protected at the point of download and only available to previously
       authorized individuals. Request for such access must go through FCA’s NFC
       Security Officer.

       An audit log is maintained on the NFC Personnel/Payroll System to effectively
       trace actions affecting the security of the system to the responsible individual. The
       log is protected from unauthorized modification, destruction, and access by the
       limited rights assigned by the primary NFC System in New Orleans. The audit logs
       are reviewed on a regular basis for instances of possible abuse.

   •   The Electronic Certification System

       The Electronic Certification System (ECS) is maintained by the Department of
       Treasury (Treasury), Financial Management Service (FMS). ECS is a system that
       agencies use to certify proper payments to Treasury. The Federal Financial System
       electronically transmits data to Treasury. FCA uses ECS to confirm that payment
       information is correct and can be released by Treasury to the recipients. The ECS is
       a proprietary financial management payment system software owned and
       maintained by Treasury.

       FCA ensures that the system has adequate security by reviewing the “Electronic
       Certification Reference Guide” prepared by Treasury. Both FCA and Treasury also
       separate duties to reinforce security. The three primary functions separated by FCA
       are:

       •   Security Administrator – brings the system up and down each day and is
           responsible for daily trouble shooting, Treasury liaison, and issuing
           authorization forms to Treasury for user’s access
       •   Certifying Officer (CO) – reviews payment information and certifies that
           payments are valid
       •   Data Entry Operator (DEO) – loads the summary payment information into ECS

b. Contractor Provided Services

   The contractors utilized by FCA are:

   •   Arcus Data Security

       Arcus Data Security (Arcus) provides offsite storage services for FCA’s backup
       tapes. The adequacy of its security was evaluated by onsite inspection by OCIO
       technical personnel.




                                          14
    Arcus is a division of Iron Mountain, a recognized leader in data security services.
    Iron Mountain has been protecting business records since 1951 for a diversified
    customer base, which includes more than half of the Fortune 500 companies. Arcus
    Data Security was added to Iron Mountain’s data security division in January 1998.
    Arcus operates over 50 dedicated data protection facilities in the United States.
    These sites are staffed with more than 1,200 trained personnel. For over 30 years,
    Arcus Data Security has provided secure, offsite vaulting for disaster recovery and
    archival data. It serves more than 25,000 companies in over 50 locations.

    Arcus states that “Every component of our offsite vaulting service is designed with
    one thing in mind; eliminating risk.” Arcus locates its facilities away from
    exposures like flood plains and railroad tracks. It constructs its buildings with non-
    combustible materials and protects them with state-of-the-art physical security. Its
    vehicles are built specifically to transport magnetic media. It carefully screens its
    employees and provides them with comprehensive training on all aspects of data
    security and protection.

•   UUNet Division of WorldCom

    UUNet Division of WorldCom is the Internet service provider for FCA. Its services
    are procured through the Farm Credit System Building Association. FCA does not
    look to UUNet to provide security. FCA considers the Internet to be inherently
    insecure and provides internal security up to the firewall through its internal
    infrastructure - hardware, software, and personnel. The security plans for the
    firewall, NT network, and other general support systems provide information on
    FCA’s security measures.

•   Rental Systems, Inc. Rentsys, formerly Wang disaster recovery services

    Rental Systems provides disaster recovery services for FCA. The service provided
    can be triggered in the wake of a catastrophic event that might render the
    Headquarters building or computer center unusable. The service provides a
    “mobile recovery facility” (MRC) that consists of a self-contained 50-foot trailer
    that can be delivered to any location FCA specifies. The MRC possesses its own
    electrical power generator, and climate control and, if needed, can provide satellite
    communications links to provide voice and data services. The MRC was tested off
    site in August 2000 to determine if the hardware furnished by the vendor, in
    combination with FCA’s software and backup tapes could be relied on to provide
    basic client server and network services - within the programmed recovery
    timeframe of not greater than three business days. The test was successful, and we
    determined that one and a half business days would be adequate to configure the
    equipment, restore user files and provide access to client server services.




                                       15
EXHIBIT B: GISRA REVIEW




          16
                             FARM CREDIT ADMINISTRATION


We used the NIST Special Publication 800-XX, Self-Assessment Guide for Information
Technology Systems (Draft) dated March 9, 2001 as a guide for our procedures. We considered
the following mission critical systems:

•    Federal Financial System (FFS)
•    Consolidated Reporting System (CRS)
•    Lotus Notes
•    WindowsNT
•    Firewall System
•    FCA Web site

In performing our procedures, as suggested by NIST, we used five performance measures:

Level 1 –   control objective documented in a security policy;
Level 2 –   security controls documented as procedures;
Level 3 –   procedures have been implemented;
Level 4 –   procedures and security controls are tested and reviewed; and
Level 5 –   procedures and security controls are fully integrated into a comprehensive program.

The NIST publication builds on the Federal IT Security Assessment Framework (Framework)
developed for the Chief Information Officers (CIO) Council. The Framework established the
groundwork for standardizing on five levels of security status and criteria agencies could use to
determine if the five levels were adequately implemented.

The goal of the Framework is to provide a standardized approach to assessing a system. The
Framework strives to blend the control objectives found in the many requirement and guidance
documents. Specific attention was made to mapping as closely as possible to the control
activities found in the General Accounting Office’s (GAO) Federal Information System Control
Audit Manual (FISCAM). FISCAM is the document GAO auditors and agency inspector
generals use. When FISCAM is referenced in the report the major category initials along with
the control activity number are provided, i.e., FISCAM SP-3.1.

The review considered seventeen areas of control, such as those pertaining to authentication and
contingency planning. In our review, we found no significant security issues. However, we
found 2 minor issues:

1.    Procedures for employees’ transfers can be improved.

      We found that the security plans reviewed did not address employee transfer procedures.
      FISCAM states: ‘The security plan should include policies related to the security aspects
      of hiring, terminating, and transferring employees and assessing their job performance.




                                                17
                            FARM CREDIT ADMINISTRATION


     We recommend that FCA include procedures for transferred employees in the application
     security plans.

2.   Applications reconciliation process can be improved.

     We found several non-reportable findings in the Management Letter issued for the year
     ended September 30, 2000 addressing reconciliation deficiencies. We recommend that
     FCA resolve these issues.

The above security issues are identified in the assessments found on the following pages.




                                               18
                                                                    FARM CREDIT ADMINISTRATION
                                                                           GISRA REVIEW
                                                                          AUGUST 31, 2001
1. Management Controls
Specific Control Objectives                                                    L.1                 L.2                          L.3                       L.4                  L.5
                                                                              Policy           Procedures                  Implemented                   Tested            Integrated
A. Risk Management
         OMB Circular A-130, III
Critical Element 1: Is risk periodically assessed?
• Are risk assessments performed and documented on a
    regular basis or whenever the system, facilities, or
    other conditions change?                                                      ✔                     ✔                            ✔                       ✔                     ✔
    FISCAM SP-1
• Has data sensitivity and integrity of the data
    considered?                                                                   ✔                     ✔                            ✔                       ✔                     ✔
    FISCAM SP-1
• Has threat sources, both natural and manmade, been
    identified?                                                                   ✔                     ✔                            ✔                       ✔                     ✔
    FISCAM SP-1
Critical Element 2: Do program officials understand
the risk to systems under their control and determine
the acceptable level of risk?
• Are final risk determinations and related management
    approvals documented and maintained on file?
    FISCAM SP-1                                                                   ✔                     ✔                            ✔                       ✔                     ✔
• Has a mission/business impact analysis been
    conducted?                                                                    ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-XX
B. Review of Security Controls
         OMB Circular A-130, III
         FISCAM SP-5
         NIST SP 800-18
Critical Element 1: Have the security controls of the
System and interconnected systems been reviewed?
• Has the system been subjected to periodic reviews?
    FISCAM SP-5.1                                                                 ✔                     ✔                            ✔                       ✔                     ✔
• Has an independent review been performed in the past
    three years or when a significant change occurred?
    OMB Circular A-130, III                                                       ✔                     ✔                            ✔                       ✔                     ✔
    FISCAM SP-5.1
    NIST SP 800-18
• Have routine self-assessments been conducted in the
    past three years?                                                             ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Has the operating system been periodically reviewed to
    ensure the configuration prevents circumvention of the
    security software and application controls?                                   ✔                     ✔                            ✔                       ✔                     ✔
    FISCAM SS-1.2
• Are tests and examinations of key controls routinely
    made, i.e., network scans, analyses of router and switch
    setting, penetration testing?                                                 ✔                     ✔                            ✔                       ✔                     ✔
    OMB Circular A-130, 8B3
    NIST SP 800-18
• Are security alerts and security incidents analyzed and
Level 1 – control objective documented in a security policy (L.1)             Level 4 – procedures and security controls are tested and reviewed (L.4)
Level 2 – security controls documented as procedures (L.2)                    Level 5 – procedures and security controls are fully integrated into a comprehensive program (L.5)
Level 3 – procedures have been implemented (L.3)
                                                                             20
                                                                    FARM CREDIT ADMINISTRATION
                                                                           GISRA REVIEW
                                                                          AUGUST 31, 2001
1. Management Controls
Specific Control Objectives                                                    L.1                 L.2                          L.3                       L.4                  L.5
                                                                              Policy           Procedures                  Implemented                   Tested            Integrated
     remedial actions taken?
     FISCAM SP 3-4                                                                ✔                     ✔                            ✔                       ✔                     ✔
     NIST SP 800-18
Critical Element 2: Does management ensure that
corrective actions are effectively implemented?
• Is there a process for reporting significant weakness
     and ensuring effective remedial action?
     FISCAM SP 5-1                                                                ✔                     ✔                            ✔                       ✔                     ✔
     NIST SP 800-18
C. Life Cycle
          OMB Circular A-130, III
          FISCAM CC-1.1
Critical Element 1: Has a system development life cycle
methodology been developed?
Initiation Phase
• Has the sensitivity of the system been determined?
     OMB Circular A-130, III
     FISCAM AC-1.1 & 1.2                                                          ✔                     ✔                            ✔                       ✔                     ✔
     NIST SP 800-18
Development/Acquisition Phase
• During the system design, were security requirements
     identified?                                                                  ✔                     ✔                            ✔                       ✔                     ✔
     NIST SP 800-18
• Was an initial risk assessment performed to determine
     security requirements?                                                       ✔                     ✔                            ✔                       ✔                     ✔
     NIST SP 800-XX
• Were security controls consistent with and an integral
     part of the IT Architecture of the agency?                                   ✔                     ✔                            ✔                       ✔                     ✔
OMB Circular A-130, 8B3
Implementation Phase
Critical Element 2: Are changes controlled as programs
progress through testing to final approval?
• Were design reviews and system tests run prior to
     placing the system in production?
     FISCAM CC-2.1                                                                ✔                     ✔                            ✔                       ✔                     ✔
     NIST SP 800-18
• Were the tests documented?
     FISCAM CC-2.1                                                                ✔                     ✔                            ✔                       ✔                     ✔
     NIST SP 800-18
• Was certification testing of security controls conducted
     and documented?                                                              ✔                     ✔                            ✔                       ✔                     ✔
     NIST SP 800-18
Operation/Maintenance Phase

•      Has a system security plan been developed and
       approved?
       OMB Circular A-130, III                                                    ✔                     ✔                            ✔                       ✔                     ✔
       FISCAM SP 2-1
       NIST SP 800-18
Level 1 – control objective documented in a security policy (L.1)             Level 4 – procedures and security controls are tested and reviewed (L.4)
Level 2 – security controls documented as procedures (L.2)                    Level 5 – procedures and security controls are fully integrated into a comprehensive program (L.5)
Level 3 – procedures have been implemented (L.3)
                                                                             21
                                                                    FARM CREDIT ADMINISTRATION
                                                                           GISRA REVIEW
                                                                          AUGUST 31, 2001
1. Management Controls
Specific Control Objectives                                                    L.1                 L.2                          L.3                       L.4                  L.5
                                                                              Policy           Procedures                  Implemented                   Tested            Integrated
•   Is the system security plan kept current?
    OMB Circular A-130, III
    FISCAM SP 2-2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
Disposal Phase
• Were official electronic records properly
    disposed/archived?                                                            ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Is information or media purged, overwritten,
    degaussed, or destroyed?
    FISCAM AC-3.4                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
D. Authorize Processing (Certification & Accreditation)
         OMB Circular A-130, III
         FIPS 102
Critical Element 1: Has the system been
certified/rectified and authorized to process
(Accreditation)?
• Has a technical and/or security evaluation been
    completed or conducted in the past three years or when
    a significant change occurred?                                                ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Has a risk assessment been conducted in the past three
    years or when a significant change occurred?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Have Rules of Behavior been established and signed by
    users?                                                                        ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Has a contingency plan been developed and tested?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Has a system security plan been developed, updated,
    and reviewed?                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
Critical Element 2: Is the system operating on an
interim authority to process?
• Has management initiated prompt action to correct
    deficiencies?                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
E. System security plan
         OMB Circular A-130, III
         NIST SP 800-18
         FISCAM SP-2.1
Critical Element 1: Is a system security plan
documented for the system and all interconnected
systems?
• Is the system security plan approved by key affected
    parties and management?
    FISCAM SP-2.1                                                                 ✔                     ✔                            ✔                       ✔                     ✔
Level 1 – control objective documented in a security policy (L.1)             Level 4 – procedures and security controls are tested and reviewed (L.4)
Level 2 – security controls documented as procedures (L.2)                    Level 5 – procedures and security controls are fully integrated into a comprehensive program (L.5)
Level 3 – procedures have been implemented (L.3)
                                                                             22
                                                                    FARM CREDIT ADMINISTRATION
                                                                           GISRA REVIEW
                                                                          AUGUST 31, 2001
1. Management Controls
Specific Control Objectives                                                    L.1                 L.2                          L.3                       L.4                  L.5
                                                                              Policy           Procedures                  Implemented                   Tested            Integrated
    NIST SP 800-18
• Does the plan contain the topics prescribed in NIST
    Special Publication 800-18?                                                   ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Is a summary of the plan incorporated into the strategic
    IRM plan?
    OMB Circular A-130, III                                                       ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
Critical Element 2: Is the plan kept current?
• Is the plan reviewed periodically and adjusted to reflect
    current conditions and risks?
    FISCAM SP-2.1                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18




Level 1 – control objective documented in a security policy (L.1)             Level 4 – procedures and security controls are tested and reviewed (L.4)
Level 2 – security controls documented as procedures (L.2)                    Level 5 – procedures and security controls are fully integrated into a comprehensive program (L.5)
Level 3 – procedures have been implemented (L.3)
                                                                             23
                                                                    FARM CREDIT ADMINISTRATION
                                                                           GISRA REVIEW
                                                                          AUGUST 31, 2001
2. Operational Controls
Specific Control Objectives                                                    L.1                 L.2                          L.3                        L.4                 L.5
                                                                              Policy           Procedures                  Implemented                   Tested            Integrated
A. Personnel Security
          OMB Circular A-130, III
Critical Element 1: Are controls such as separation of
duties, least privilege, and individual accountability
incorporated into security-related policies?
• Are there documented job descriptions that accurately
    reflect assigned duties and responsibilities and that
    segregate duties?                                                              ✔                    ✔                            ✔                       ✔                     ✔
    FISCAM SD-1.2
• Are sensitive functions divided among different
    individuals?                                                                   ✔                    ✔                            ✔                       ✔                     ✔
    OMB Circular A-130, III
    FISCAM SD-1
• Are distinct systems support functions performed by
    different individuals?                                                         ✔                    ✔                            ✔                       ✔                     ✔
    FISCAM SD-1.1
• Are mechanisms in place for holding users responsible
    for their actions?
    OMB Circular A-130, III                                                        ✔                    ✔                            ✔                       ✔                     ✔
    FISCAM SD-2 & 3.2
• Are hiring, transfer, and termination procedures                                 See          See Issue 1.                 See Issue 1.                  See             See Issue 1.
    established?                                                                  Issue                                                                  Issue 1.
    FISCAM SP-4.1                                                                   1.
    NIST SP 800-18
• Is there a process for requesting, establishing, issuing,
    and closing user accounts?
    FISCAM SP-4.1                                                                  ✔                    ✔                            ✔                       ✔                     ✔
    NIST 800-18
Critical Element 2: Is appropriate background
screening for assigned positions completed prior to
granting access?                                                                   ✔                    ✔                            ✔                       ✔                     ✔
B. Physical and Environmental Protection
Physical Access Control
Critical Element 1: Have adequate physical security
controls been implemented that are commensurate with
the risks of physical damage or access?
• Is access to facilities controlled through the use of
    guards, identification badges, or entry devices such as
    key cards?                                                                     ✔                    ✔                            ✔                       ✔                     ✔
    FISCAM AC-3
    NIST SP 800-18
• Are deposits and withdrawals of tapes and other
    storage media from the library authorized and logged?                          ✔                    ✔                            ✔                       ✔                     ✔
    FISCAM AC-3.1
Fire Safety Factors
• Are fire suppression and prevention devices installed
    and working?
    FISCAM SC-2.2                                                                  ✔                    ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
Level 1 – control objective documented in a security policy (L.1)             Level 4 – procedures and security controls are tested and reviewed (L.4)
Level 2 – security controls documented as procedures (L.2)                    Level 5 – procedures and security controls are fully integrated into a comprehensive program (L.5)
Level 3 – procedures have been implemented (L.3)
                                                                             24
                                                                    FARM CREDIT ADMINISTRATION
                                                                           GISRA REVIEW
                                                                          AUGUST 31, 2001
2. Operational Controls
Specific Control Objectives                                                    L.1                 L.2                          L.3                        L.4                 L.5
                                                                              Policy           Procedures                  Implemented                   Tested            Integrated
Supporting Utilities
•   Are heating and air-conditioning systems regularly
    maintained?                                                                   ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Is there a redundant air-cooling system?
    FISCAM SC-2.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
• Are electric power distribution, heating plants, water,
    sewage, and other utilities periodically reviewed for
    risk of failure?                                                              ✔                     ✔                            ✔                       ✔                     ✔
    FISCAM SC-2.2
    NIST SP 800-18
• Has an uninterruptible power supply or backup
    generator been provided?                                                      ✔                     ✔                            ✔                       ✔                     ✔
    FISCAM SC-2.2
Interception of Data
Critical Element 2: Is data protected from interception?
• Is physical access to data transmission lines controlled?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
C. Production, Input/Output Controls
Critical Element 1: Is their user support?
•   Is there a help desk or group that offers advice?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
Critical Element 2: Are there media controls?
•   Are there procedures to ensure that unauthorized
    individuals cannot read, copy, alter, or steal printed or
    electronic information?                                                       ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Are there procedures for ensuring that only authorized
    users pick up, receive, or deliver input and output
    information and media?                                                        ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Are audit trails used for receipt of sensitive
    inputs/outputs?                                                               ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Are controls in place for transporting or mailing media
    or printed output?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
D. Contingency Planning
         OMB Circular A-130, III
Critical Element 1: Have the most critical and sensitive
operations and their supporting computer resources
been identified?
• Are critical data files identified and the frequency of
    file backup documented?
    FISCAM SC- SC-1.1 & 3.1                                                       ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Are resources supporting critical operations identified?
FISCAM SC-1.2                                                                     ✔                     ✔                            ✔                       ✔                     ✔

Level 1 – control objective documented in a security policy (L.1)             Level 4 – procedures and security controls are tested and reviewed (L.4)
Level 2 – security controls documented as procedures (L.2)                    Level 5 – procedures and security controls are fully integrated into a comprehensive program (L.5)
Level 3 – procedures have been implemented (L.3)
                                                                             25
                                                                    FARM CREDIT ADMINISTRATION
                                                                           GISRA REVIEW
                                                                          AUGUST 31, 2001
2. Operational Controls
Specific Control Objectives                                                    L.1                 L.2                          L.3                        L.4                 L.5
                                                                              Policy           Procedures                  Implemented                   Tested            Integrated
•   Have processing priorities been established and
    approved by management?
    FISCAM SC-1.3                                                                 ✔                     ✔                            ✔                       ✔                     ✔
Critical Element 2: Has a comprehensive contingency
plan been developed and documented?
• Is the plan approved by key affected parties?
    FISCAM SC-3.1                                                                 ✔                     ✔                            ✔                       ✔                     ✔
• Are responsibilities for recovery assigned?
    FISCAM SC-3.1                                                                 ✔                     ✔                            ✔                       ✔                     ✔
• Are there detailed instructions for restoring operations?
    FISCAM SC-3.1                                                                 ✔                     ✔                            ✔                       ✔                     ✔
• Is there an alternate processing site; if so, is there a
    contract or interagency agreement in place?                                   ✔                     ✔                            ✔                       ✔                     ✔
    FISCAM SC-3.1
    NIST SP 800-18
• Is the location of stored backups and are generations of
    backups identified?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Has the contingency plan been distributed to all
    appropriate personnel?
    FISCAM SC-3.1                                                                 ✔                     ✔                            ✔                       ✔                     ✔
Critical Element 3: Are tested contingency/disaster
recovery plans in place?
• Is the plan stored securely offsite?
    FISCAM SC-3.1                                                                 ✔                     ✔                            ✔                       ✔                     ✔
• Are employees trained in their roles and
    responsibilities?
    FISCAM SC-2.3                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Is the plan periodically tested and readjusted as
    appropriate?
    FISCAM SC-3.1                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
E. Hardware and System Software Maintenance
OMB Circular A-130, III
Critical Element 1: Is access limited to system software
and hardware?
• Are restrictions in place on who performs maintenance
    and repair activities?
    OMB Circular A-130, III                                                       ✔                     ✔                            ✔                       ✔                     ✔
    FISCAM SS-3.1
    NIST SP 800-18
• Is access to all program libraries restricted and
    controlled?                                                                   ✔                     ✔                            ✔                       ✔                     ✔
    FISCAM CC-3.2 & 3.3
Critical Element 2: Are all new and revised hardware
and software authorized, tested and approved before
implementation?
• Is an impact analysis conducted to determine the effect
Level 1 – control objective documented in a security policy (L.1)             Level 4 – procedures and security controls are tested and reviewed (L.4)
Level 2 – security controls documented as procedures (L.2)                    Level 5 – procedures and security controls are fully integrated into a comprehensive program (L.5)
Level 3 – procedures have been implemented (L.3)
                                                                             26
                                                                    FARM CREDIT ADMINISTRATION
                                                                           GISRA REVIEW
                                                                          AUGUST 31, 2001
2. Operational Controls
Specific Control Objectives                                                    L.1                 L.2                          L.3                        L.4                 L.5
                                                                              Policy           Procedures                  Implemented                   Tested            Integrated
       of proposed changes on existing security controls,
       including the required training needed to implement the                    ✔                     ✔                            ✔                       ✔                     ✔
       control?
       NIST SP 800-18
•      Are system components tested and approved (operating
       system, utility, applications) prior to promotion to
       production?                                                                ✔                     ✔                            ✔                       ✔                     ✔
       FISCAM SS-3.1 & CC-2.1
       NIST SP 800-18
•      Are software change request forms used to document
       requests and related approvals?
       FISCAM CC-1.2                                                              ✔                     ✔                            ✔                       ✔                     ✔
       NIST SP 800-18
•      Are the distribution and implementation of new or
       revised software documented and reviewed?
       FISCAM SS-3.2                                                              ✔                     ✔                            ✔                       ✔                     ✔

F. Data Integrity
OMB Circular A-130, 8B3
Critical Element 1: Is virus detection and elimination
software installed and activated?                                                 ✔                     ✔                            ✔                       ✔                     ✔
Critical Element 2: Are data integrity and validation
controls used to provide assurance that the information
has not been altered and the system functions as
intended?
• Are reconciliation routines used by applications, i.e.,                     See             See Issue 2.                See Issue 2.                  See                See Issue 2.
    checksums, hash totals, record counts?                                    Issue 2                                                                   Issue 2.
    NIST SP 800-18
• Are inappropriate or unusual activity investigated and
    appropriate actions taken?
    FISCAM SS-2.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
• Are procedures in place to determine compliance with
    password policies?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Are intrusion detection tools installed on the system?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Are the intrusion detection reports routinely reviewed
    and suspected incidents handled accordingly?                                  ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Is system performance monitoring used to analyze
    system performance logs in real time to look for
    availability problems, including active attacks?                              ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Is penetration testing performed on the system?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
G. Documentation
OMB Circular A-130, 8B3
Critical Element 1: Is there documentation that
explains how software/hardware is to be used?

Level 1 – control objective documented in a security policy (L.1)             Level 4 – procedures and security controls are tested and reviewed (L.4)
Level 2 – security controls documented as procedures (L.2)                    Level 5 – procedures and security controls are fully integrated into a comprehensive program (L.5)
Level 3 – procedures have been implemented (L.3)
                                                                             27
                                                                    FARM CREDIT ADMINISTRATION
                                                                           GISRA REVIEW
                                                                          AUGUST 31, 2001
2. Operational Controls
Specific Control Objectives                                                    L.1                 L.2                          L.3                        L.4                 L.5
                                                                              Policy           Procedures                  Implemented                   Tested            Integrated
•   Is there vendor-supplied documentation of software?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Are there standard operating procedures for all the
    topic areas covered in this document?                                         ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Are there user manuals?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Are there emergency procedures?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Are there backup procedures?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
Critical Element 2: Are there formal security and
operational procedures documented?
• Is there a system security plan?
    OMB Circular A-130, III                                                       ✔                     ✔                            ✔                       ✔                     ✔
    FISCAM Pp-2.1
    NIST SP 800-18
• Is there a contingency plan?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Are there risk assessment reports?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Are there certification and accreditation documents and
    statements authorizing the system to process?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
H. Security Awareness, Training, and Education
OMB Circular A-130, III
Critical Element 1: Have employees received adequate
training to fulfill their security responsibilities?
• Have employees received a copy of the rules of
    behavior?                                                                     ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Is employee training and professional development
    documented and monitored?
    FISCAM SP-4.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
• Is there mandatory annual refresher training?
    OMB Circular A-130, III                                                       ✔                     ✔                            ✔                       ✔                     ✔
• Are methods employed to make employees aware of
    security, i.e., posters, booklets?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Have employees received a copy of or have easy access
    to agency security procedures and policies?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
I. Incident Response Capability
         OMB Circular A-130, III
         FISCAM SP-3.4
         NIST 800-18
Critical Element 1: Is there a capability to provide help
to users when a security incident occurs in the system?
• Is a formal incident response capability available?
Level 1 – control objective documented in a security policy (L.1)             Level 4 – procedures and security controls are tested and reviewed (L.4)
Level 2 – security controls documented as procedures (L.2)                    Level 5 – procedures and security controls are fully integrated into a comprehensive program (L.5)
Level 3 – procedures have been implemented (L.3)
                                                                             28
                                                                    FARM CREDIT ADMINISTRATION
                                                                           GISRA REVIEW
                                                                          AUGUST 31, 2001
2. Operational Controls
Specific Control Objectives                                                    L.1                 L.2                          L.3                        L.4                 L.5
                                                                              Policy           Procedures                  Implemented                   Tested            Integrated
    FISCAM SP-3.4
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Is there a process for reporting incidents?
    FISCAM SP-3.4
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Are incidents monitored and tracked until resolved?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Are personnel trained to recognize and handle
    incidents?
    FISCAM SP-3.4                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Are alerts/advisories received and responded to?
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Is there a process to modify incident handling
    procedures and control techniques after an incident                           ✔                     ✔                            ✔                       ✔                     ✔
    occurs?
    NIST SP 800-18
Critical Element 2: Is incident related information
shared with organizations?
• Is incident information and common vulnerabilities or
    threats shared with interconnected systems?                                   ✔                     ✔                            ✔                       ✔                     ✔
    OMB A-130, III
    NIST SP 800-18
• Is incident information shared with FedCIRC 3
    concerning incidents and common vulnerabilities and
    threats?                                                                      ✔                     ✔                            ✔                       ✔                     ✔
    OMB A-130, III
    GSRA
• Is incident information reported to FedCIRC, NIPC 4,
    and local law enforcement when necessary?
    OMB A-130,III                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    GSRA




Level 1 – control objective documented in a security policy (L.1)             Level 4 – procedures and security controls are tested and reviewed (L.4)
Level 2 – security controls documented as procedures (L.2)                    Level 5 – procedures and security controls are fully integrated into a comprehensive program (L.5)
Level 3 – procedures have been implemented (L.3)
                                                                             29
                                                                    FARM CREDIT ADMINISTRATION
                                                                           GISRA REVIEW
                                                                            Audit Program
                                                                          AUGUST 31, 2001
3. Technical Controls
Specific Control Objectives                                                    L.1                 L.2                          L.3                        L.4                 L.5
                                                                              Policy           Procedures                  Implemented                   Tested            Integrated

A. Identification and Authentication
OMB Circular A-130, III
FISCAM AC-2
NIST SP 800-18
Critical Element 1: Are users individually
authenticated?
• Is a current list maintained and approved of authorized
    users and their access?
    FISCAM AC-2                                                                   ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Is emergency and temporary access authorized?
    FISCAM AC-2.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
• Are passwords, tokens, or other devices used to
    identify and authenticate?
    FISCAM AC-3.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Are passwords changed at least every ninety days or
    earlier if needed?
    FISCAM AC-3.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Do passwords require alpha numeric, upper/lower case,
    and special characters?
    FISCAM AC-3.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Are inactive user identifications disabled after a
    specified period of time?
    FISCAM AC-3.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Are passwords not displayed when entered?
    FISCAM AC-3.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Are there procedures in place for handling lost and
    compromised passwords?
    FISCAM AC-3.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Are passwords distributed securely and users informed
    not to reveal their passwords to anyone (social                               ✔                     ✔                            ✔                       ✔                     ✔
    engineering)?
    NIST SP 800-18
• Are passwords transmitted and stored with one-way
    encryption?
    FISCAM AC-3.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Are vendor-supplied passwords replaced immediately?
    FISCAM AC-3.2
    NIST SP 800-18                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Is there a limit to the number of invalid access attempts
Level 1 – control objective documented in a security policy (L.1)             Level 4 – procedures and security controls are tested and reviewed (L.4)
Level 2 – security controls documented as procedures (L.2)                    Level 5 – procedures and security controls are fully integrated into a comprehensive program (L.5)
Level 3 – procedures have been implemented (L.3)
                                                                             30
                                                                    FARM CREDIT ADMINISTRATION
                                                                           GISRA REVIEW
                                                                            Audit Program
                                                                          AUGUST 31, 2001
3. Technical Controls
Specific Control Objectives                                                    L.1                 L.2                          L.3                        L.4                 L.5
                                                                              Policy           Procedures                  Implemented                   Tested            Integrated
    that may occur for a given user?
    FISCAM AC-3.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
Critical Element 2: Are access controls enforcing
segregation of duties?
• Does the system correlate actions to users?
    OMB A-130, III
    FISCAM SD-2.1                                                                 ✔                     ✔                            ✔                       ✔                     ✔
B. Access Controls
         OMB Circular A-130, III
         FISCAM AC-3.2
         NIST SP 800-18
Critical Element 1: Do the logical access controls
restrict users to authorized transactions and functions?
• Can the security controls detect unauthorized access
    attempts?
    FISCAM AC-3.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Is access to security software restricted to security
    administrators?
    FISCAM AC-3.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
• Do terminals automatically log off and screensavers
    lock system after a period of inactivity?
    FISCAM AC-3.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Are inactive users’ accounts monitored and removed
    when not needed?
    FISCAM AC-3.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
Critical Element 2: Are there logical controls for
Telecommunications access?
• Has communication software been implemented to
    restrict access through specific terminals?
    FISCAM AC-3.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
• Are insecure protocols (i.e., UDP, ftp) disabled?
    PSN Security Assessment Guidelines                                            ✔                     ✔                            ✔                       ✔                     ✔
• Have all vendor-supplied default security parameters
    been reinitialized to more secure settings?
    PSN Security Assessment Guidelines                                            ✔                     ✔                            ✔                       ✔                     ✔
• Are there controls to allow users to access the system
    remotely?                                                                     ✔                     ✔                            ✔                       ✔                     ✔
    NIST SP 800-18
• Are network activity logs maintained and reviewed?
    FISCAM AC-3.2                                                                 ✔                     ✔                            ✔                       ✔                     ✔
• Does the network connection automatically disconnect
    at the end of a session?                                                      ✔                     ✔                            ✔                       ✔                     ✔
    FISCAM AC-3.2
• Is dial-in access monitored?
Level 1 – control objective documented in a security policy (L.1)             Level 4 – procedures and security controls are tested and reviewed (L.4)
Level 2 – security controls documented as procedures (L.2)                    Level 5 – procedures and security controls are fully integrated into a comprehensive program (L.5)
Level 3 – procedures have been implemented (L.3)
                                                                             31
                                                                    FARM CREDIT ADMINISTRATION
                                                                           GISRA REVIEW
                                                                            Audit Program
                                                                          AUGUST 31, 2001
3. Technical Controls
Specific Control Objectives                                                    L.1                 L.2                          L.3                        L.4                 L.5
                                                                              Policy           Procedures                  Implemented                   Tested            Integrated
     FISCAM AC-3.2                                                                ✔                     ✔                            ✔                       ✔                     ✔
•    Is access to telecommunications hardware or facilities
     restricted and monitored?
     FISCAM AC-3.2                                                                ✔                     ✔                            ✔                       ✔                     ✔
• Are firewalls or secure gateways installed?
     NIST SP 800-18                                                               ✔                     ✔                            ✔                       ✔                     ✔
• If firewalls are installed do they comply with firewall
     policy and rules?
     FISCAM AC-3.2                                                                ✔                     ✔                            ✔                       ✔                     ✔
Critical Element 3: If the public accesses the system,
are there controls in-place and implemented to protect
the integrity of the application and the confidence of the
public?
• Is a privacy policy posted on the web site?
     OMB-99-18                                                                    ✔                     ✔                            ✔                       ✔                     ✔
• Is a DOJ approved standardized log-on banner
     displayed on the system warning unauthorized users
     that they have accessed a U.S. government system and
     can be punished?                                                             ✔                     ✔                            ✔                       ✔                     ✔
    FISCAM AC-3.2
    NIST SP 800-18
C. Audit Trails
          OMB Circular A-130, III
          FISCAM AC-4.1
          NIST SP 800-18
Critical Element 1: Is all activity involving access to
and modification of sensitive or critical files logged?
• Does the audit trail provide accountability by providing
     a trace of user actions?
     NIST SP 800-18                                                               ✔                     ✔                            ✔                       ✔                     ✔
• Can the audit trail support after-the-fact investigations
     of how, when, and why normal operations ceased?
     NIST SP 800-18                                                               ✔                     ✔                            ✔                       ✔                     ✔
• Is access to online audit logs strictly controlled?
     NIST SP 800-18                                                               ✔                     ✔                            ✔                       ✔                     ✔
• Are off-line storage of audit logs retained for a period
     of time, and if so, is access to audit logs strictly                         ✔                     ✔                            ✔                       ✔                     ✔
     controlled?
     NIST SP 800-18
• Is there separation of duties between security personnel
     who administer the access control function and those
     who administer the audit trail?                                              ✔                     ✔                            ✔                       ✔                     ✔
     NIST SP 800-18
• Are audit trails reviewed frequently? NIST SP 800-18
                                                                                  ✔                     ✔                            ✔                       ✔                     ✔




Level 1 – control objective documented in a security policy (L.1)             Level 4 – procedures and security controls are tested and reviewed (L.4)
Level 2 – security controls documented as procedures (L.2)                    Level 5 – procedures and security controls are fully integrated into a comprehensive program (L.5)
Level 3 – procedures have been implemented (L.3)
                                                                             32
